                                       INSPECTION




 STATUS OF THE ROCKY FLATS
 NATIONAL WILDLIFE REFUGE





Report No.: C-IS-FWS-0017-2010   Reissued October 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTE lOR
                                                                                           OCT 2 8 2011
Memorandum

To:        Daniel M. Ashe
           Director, U.S. Fish and Wildlife Service

From:      Kimberly Elmore ~~~                     Ctnu-v-
           Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:   Inspection - Status of the Rocky Flats National Wildlife Refuge
           Report No. C-IS-FWS-0017-2010

         On July 21 , 2011 , we transmitted the subject report to you and requested a written
response. In our report, we stated that the U.S. Environmental Protection Agency (EPA) and the
Colorado Department of Public Health and the Environment (CDPHE) may restrict certain
activities at the Refuge due to remaining radionuclides in the soil. Our report cited concerns
these agencies expressed in 2003 during the Superfund remediation process and characterized the
current status as "non-residential, restricted use. " We failed to note that subsequent decision
records and related correspondence, from 2006 and 2007, reported that - outside a core area that
remains under the control of the U.S. Department of Energy - the levels of contamination are
low enough that they allow for unlimited use and unrestricted exposure.

        As a result, we have removed references to possible restrictions imposed by EPA and
CDPHE at the Refuge, and we are transmitting a revised report (see attachment). The primary
finding of our report is that invasive weeds have displaced native species. The U.S. Fish and
Wildlife Service (FWS) has been aware of the possible establishment of the Refuge since the
time of the Rocky Flats National Wildlife Refuge Act of 200 1 but has not provided funding for
the Refuge or management of the invasive weeds. Without the risks of radionuclide exposure, a
broader range of options may be available for extirpation and restoration activities. Although we
recognize the need to prioritize funding among numerous refuges, FWS has had several years to
plan and prioritize funding for this Refuge. Without proactive management, the unique biological
diversity of this Refuge may be at risk. Prompt action may save FWS significant time and
money.

       We suggest the FWS Director weigh the unique ecosystem and circumstances of the
Rocky Flats National Wildlife Refuge against the needs of other refuges, and determine whether
funds should be allocated to remediate the increasing invasive weed problem. Although a written
response to this report is not required, we would appreciate being informed of the results of any
reconsideration of the Refuge ' s funding status.

      If you have any questions regarding this report, please contact Charles Haman at
303-236-9243.

Attachment

                        Office of Audits, Inspections, and Evaluations I Washington , DC
                                                                                        Attachment


               Status of the Rocky Flats National Wildlife Refuge

                       Report No. C-IS-FWS-0017-2010


Introduction

        The Rocky Flats National Wildlife Refuge Act of 2001 (Act) established the Refuge,
located just outside of Denver, CO. The Act stated that the site had several significant qualities,
including that it had been relatively undisturbed for the last 30 to 50 years; it provided a habitat
for many wildlife species, including a number of threatened and endangered species; and it was
distinctive due to the presence of rare plant communities. As part of the process for establishing
the Refuge, the Act required preparation of a Comprehensive Conservation Plan and
Environmental Impact Statement (CCP/EIS). The CCP/EIS was completed in 2004 and provided
alternatives to guide management operations, habitat restoration, and visitor services for the
following 15 years.

        Because a large portion of the site remained undisturbed for decades, a diverse mosaic of
vegetation communities existed on the Refuge when the CCP/EIS was completed. The CCP/EIS
documented over 600 different plant species existing on the Refuge, including the rare xeric
tallgrass prairie plant communities. This tallgrass community existed in fewer than 20 places
worldwide. The Refuge also supported tall upland shrub communities and populations of four
rare plant species, including the mountain-loving sedge, forktip three-awn, carrionflower
greenbriar, and the dwarf wild indigo.

        In addition, more than 1,300 different animal species resided on the Refuge, including
two Federally-listed endangered species – the Preble’s meadow jumping mouse and the bald
eagle. One “state endangered,” one “state threatened,” and seven “state special concern”
mammals were also identified.

Background

        The Refuge contained 4,880 acres of a 6,240-acre former nuclear defense facility
operated by the U.S. Department of Energy (DOE). Radioactive materials and other chemicals
released into the environment during DOE operations resulted in the area being designated a
Superfund cleanup site regulated by the U.S. Environmental Protection Agency (EPA) and the
Colorado Department of Public Health and the Environment (CDPHE). DOE retained about
1,500 acres of the main industrial area because of the remaining nuclear and other contamination
and the regulatory requirement for continuing institutional controls. The area retained by DOE is
referred to as the Central Operable Unit (OU). The area to become the Refuge was referred to as
the Peripheral OU.

       In June 2007, EPA certified that the cleanup and closure of Rocky Flats had been
completed and conditions in the Peripheral OU area to become the Refuge were acceptable for
unlimited use and unrestricted exposure. Following this certification, the U.S. Fish and Wildlife
Service (FWS) announced the acceptance of the transfer of the land and the establishment of the
Refuge in July 2007. This refuge was unique because of its rare plant and animal life, and
because it is the only FWS refuge established on a former nuclear superfund site with radioactive

                                                 1

materials remaining in the soil. The Refuge has sat idle since its establishment as the operation
and maintenance of the Refuge remain unfunded. The maintenance that does occur at the Refuge
is mainly performed by FWS staff from the nearby Rock Mountain Arsenal unit. Because the
Refuge is not funded or staffed, invasive species continue to spread and put the Refuge’s unique,
native species at risk.

Findings

        We inspected this refuge to determine whether FWS appropriately used the money made
available from DOE for the Refuge and planned for future funding of Refuge operations. We
also reviewed the status of CCP implementation.

       We found that FWS appropriately used the money available from DOE to complete the
2004 CCP/EIS, but it did not plan for implementation of the CCP after DOE funds were spent.
As a result, FWS never opened the Refuge to the public.

       While the scope of this review did not include an assessment of environmental
conditions, we learned that as the Refuge sits idle, invasive weeds are displacing native species.

         According to a local Refuge Manager, FWS often performs full-scale restoration efforts
at its various Refuges, to include the plowing under of vegetation and replanting with native
species, to combat invasive weed infestations. FWS will likely have to conduct such an effort to
eliminate the invasive weeds at this Refuge if it does not address the infestation promptly.

        We provided a Notice of Potential Findings and Recommendations to FWS outlining our
concerns and recommended that FWS implement a plan to control the invasive weeds and
preserve the Refuge’s native ecosystem. The Acting FWS Regional Director in Region 6
acknowledged and agreed that invasive weeds were a problem on the Refuge, but did not believe
FWS could undertake corrective action at this time. The director indicated that many refuges in
the region have invasive weed problems, but stated that operational funding is limited and cannot
cover the invasive weed needs on all refuges.

        The Acting FWS Regional Director in Region 6 went on to state that funding requests
have been submitted for the Refuge, but “the proposed projects for Rocky Flats . . . compete with
projects from all other refuges in the region, and there are many priority invasive weed projects .
. . as well as many health and safety projects, resource protection projects, etc.” The Refuge has
not scored high enough to receive additional funding as a result of regional prioritization. The
region prioritized and forwarded to FWS headquarters only 84 of 888 local projects, and only
seven of the 84 projects were funded for 2010.

        We recognize the need for FWS to prioritize funding among numerous refuges. The
invasive weeds could potentially destroy the unique biological diversity of this Refuge. Prompt
remediation may save FWS time and money. FWS estimates that as of fiscal year (FY) 2011, it
would take 5 years and almost $600,000 to control weeds in just the worst areas – about 1,100
acres, or one-fourth of the Refuge. FWS predicts that delaying action until FY2019 will create a
need for restoration efforts that will take at least 7 years and $2 million to control the weeds in


                                                 2

only the worst areas, which FWS estimates will increase to 2,400 acres, or about one-half of the
Refuge. These increased costs do not reflect administrative costs or additional work, if any,
associated with the current proposal to expand the Refuge.

Scope and Methodology

       We limited this inspection to the Rocky Flats National Wildlife Refuge. During the
course of the review, we visited the Refuge, interviewed appropriate officials, and reviewed
copies of pertinent documents.

       We conducted this inspection in accordance with the “Quality Standards for Inspections”
adopted by the Council of the Inspectors General on Integrity and Efficiency. We believe that the
work performed provides a reasonable basis for our conclusions and recommendations.




                                                3

                                   


            Report Fraud, Waste,                                     
            and Mismanagement
                                      
                 Fraud, waste, and mismanagement in
                 government concern    everyone: Office
               of Inspector General staff, Departmental
                employees, and the general public. We
                   actively solicit allegations of any
                          and wasteful practices, fraud,
               inefficient
                    and mismanagement related to
              
                Departmental or Insular Area programs
                                                        
                    and operations.  You can report
                   allegations to us  in several ways.
                                       
                                   
                                   
     By Mail:	         U.S. Department of the Interior  
                       Office of Inspector General  
                       Mail Stop 4428 MIB  
                       1849 C Street, NW  
                       Washington, D.C. 20240  
      
               
     By Phone:	        24-Hour Toll Free                               
                                                           800-424-5081
                       Washington Metro Area               202-208-5300
                                                                       
      
               
     By Fax:	          703-487-5402
      
     By Internet:	     www.doioig.gov
  
                                                                           
